NO. 19-5522

IN THE
SUPREME COURT OF THE UNITED STATES

_____________________________
CRAIG HOWARD,
PETITIONER,
VS.
UNITED STATES OF AMERICA,
RESPONDENT.

ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF THE UNITED STATES
______________________________________________________________________________

PETITION FOR WRIT OF CERTIORARI
______________________________________________________________________________

André C. Wharton
Attorney for Petitioner, Craig Howard
1575 Madison Ave.
Memphis, Tennessee 38104
andrecwharton@thewhartonlawfirm.com
(901) 726-6884

QUESTIONS PRESENTED FOR REVIEW
(1) Does the lawful detention of an objecting co-tenant in a squad car on the
premises to be searched make him absent such that another co-tenant may consent
to the search while the objecting co-tenant remains in the squad car, or will said
objecting co-tenant’s presence near the premises to be search, despite in a squad car,
satisfy the physical presence requirement under Randolph and Fernandez?

(2) Is it reasonable for an investigating officer to rely on a single co-tenant’s
consent to search a shared residence in order to search each separate bedroom of the
residence and its contents without first possessing knowledge of the consenting cotenant’s authority and mutual use of each bedroom?

i

LIST OF PARTIES
All parties appear in the caption of the case on the cover page. A list of all
parties to the proceeding in the court whose judgment is the subject of this petition
is as follows:
Craig Howard, Petitioner
United States of America, Respondent

ii

TABLE OF CONTENTS
QUESTION PRESENTED FOR REVIEW.....................................................................i
LIST OF PARTIES..........................................................................................................ii
TABLE OF CONTENTS................................................................................................iii
INDEX TO APPENDICES.............................................................................................iv
TABLE OF AUTHORITIES............................................................................................v
PRAYER........................................................................................................................vii
OPINION BELOW.......................................................................................................viii
JURISDICTION...........................................................................................................viii
STATUTES, RULES, ORDINANCES AND REGULATIONS INVOLVED...............ix
INTRODUCTION .......................................................................................................... 1
STATEMENT OF THE CASE........................................................................................3
REASONS FOR GRANTING THE WRIT……............................................................10
Will the lawful detention of an objecting co-tenant in a squad car on the premises
to be searched make him absent such that another co-tenant may consent to the
search while the objecting co-tenant remains in the squad car, or will said objecting
co-tenant’s presence near the premises to be search, despite in a squad car, satisfy
the physical presence requirement under Randolph and Fernandez?
Is it reasonable for an investigating officer to rely on a single co-tenant’s consent
to search a shared residence in order to search each separate bedroom of the
residence and its contents without first possessing knowledge of the consenting cotenant’s authority and mutual use of each bedroom?

CONCLUSION..............................................................................................................26

iii

INDEX TO APPENDICES
DECISION OF THE UNITED STATES DISTRICT COURT FOR THE WESTERN
DISTRICT OF TENNESSEE
DECISION OF UNITED STATES COURT OF APPEALS FOR THE SIXTH
CIRCUIT
DENIAL OF PETITION FOR REHEARING EN BANC

iv

TABLE OF AUTHORITIES
U.S. SUPREME COURT CASES

Bailey v. United States, 568 U.S. 186 (2013) ............................................................. 11
Fernandez v. California, 571 U.S. 292 (2014)......................................................passim
Georgia v. Randolph, 547 U.S. 103, 115 (2006) ...................................................passim
Illinois v. Rodriguez, 497 U.S. 177 (1990)............................................................passim
Schneckloth v. Bustamonte, 412 U.S. 218 (1973)....................................................... 21
United States v. Matlock, 415 U.S. 164 (1974) ...................................................... 12,22
DISTRICT COURT AND COURT OF APPEALS CASES

Joseph v. Donahue, 392 F. Supp. 3d 973 (D. Minn. 2019) ......................................... 13
Pratt v. United States, 214 Fed. App’x 532 (6th Cir. 2007) ....................................... 22
Prophet v. State of Florida, 970 So.2d 942 (Fla. App. 4 Dist. 2008) .......................... 13
State of Wisconsin v. St. Martin, 800 N.W.2d 858 (Wisc. 2011) ................................ 14
United States v. Arreguin, 735 F.3d 1168 (9th Cir. 2013) ................................. 2,20,25
United States v. Blackaby,
2018 U.S. Dist. LEXIS 22204 (E.D. Ky. Feb. 12, 2018) ......................................... 13,18

United States v. Cos, 498 F.3d 1115 (10th Cir. 2007) ................................................ 24
United States v. Davis, 332 F.3d 1163 (9th Cir. 2003) .............................................. 25
United States v. Howard, 806 Fed. App’x 383 (6th Cir. 2020)..................................... 8
United States v. Jones, 861 F.3d 638 (7th Cir. 2017) ................................................ 13
United States v. Kelley, 953 F.2d 562 (9th Cir. 1992) ............................................... 22
United States v. Morales, 893 F.3d 1360 (11th Cir. 2018).................................... 14,18
United States v. Peyton, 745 F.3d 546 (D.C. Cir. March 21, 2014) ........................... 25
v

United States v. Rith, 164 F.3d 1323 (10th Cir. 1999)............................................... 24
STATUTORY AUTHORITY
Fourth Amendment to the Constitution of the United Sates .............................passim
OTHER AUTHORITIES
Richard Fry, More adults now share their living space,

driven in part by parents living with their adult children ,
Pew Research Center (Jan. 31, 2018)
https://www.pewresearch.org/fact-tank/2018/01/31/more-adults-now-share-theirliving-space-driven-in-part-by-parents-living-with-their-adult-children/ ................. 25
Harlan Thomas Mechling,

Third Party Consent and Container Searches in the Home,
92 Wash. L. Rev. 1029 (2017) ...................................................................................... 26

vi

IN THE

SUPREME COURT OF THE UNITED STATES

_________________
PEITION FOR WRIT OF CERTIORARI

Petitioner, Craig Howard, respectfully prays that a Writ of Certiorari issue to
review the judgment below.

vii

OPINION BELOW
The opinion of the District Court denying Petitioner’s Motion to Suppress
appears at Appendix A and is unreported. The opinion of the United States Court of
Appeals for the Sixth Circuit appears at Appendix B and can be found at United

States v. Howard, 806 Fed. App’x 383 (6th Cir. 2020).
The United States Court of Appeals for the Sixth Circuit issued an unreported
order denying Petitioner’s Petition for Rehearing En Banc on May 13, 2020 and
appears at Appendix C to this petition.

JURISDICTION
On March 16, 2020, the United States Court of Appeals for the Sixth Circuit
entered its ruling affirming the conviction of Petitioner. United States v. Howard, 806
Fed. App’x 383 (6th Cir. 2020). Pursuant to Federal Rules of Appellate Procedure
35(b), Petitioner filed a Petition for Rehearing En Banc with the United States Court
of Appeals for the Sixth Circuit on March 31, 2020. On May 13, 2020 the Court of
Appeals for the Sixth Circuit denied Petitioner’s Petition for Rehearing En Banc,
which was mandated on May 22, 2020. The jurisdiction of this Court is invoked under
28 USCS § 1254(a).

viii

STATUTES, RULES, ORDINANCES, AND REGULATIONS INVOLVED
(1) USCS Const. Amend. 4:
The right of the people to be secure in their persons, houses, papers, and
effects, against unreasonable searches and seizures, shall not be violated,
and no Warrants shall issue, but upon probable cause, supported by Oath
or affirmation, and particularly describing the place to be searched, and the
persons or things to be seized.

ix

INTRODUCTION
This Honorable Court has held that “[a] physically present inhabitant’s
express refusal of consent to a police search is dispositive as to him, regardless of the
consent of a fellow occupant . . . Disputed permission is thus no match for this central
value of the Fourth Amendment” Georgia v. Randolph, 547 U.S. 103, 115, 122-23
(2006). However, this Court subsequently recognized that if “Randolph requires
presence on the premises to be searched, there may be cases in which the outer
boundary of the premises is disputed.” Fernandez v. California, 571 U.S. 292, 306
(2014).

While individuals have disputed the definition and Fourth Amendment

implications behind “physical presence” since the holding in Randolph, this case
presents the ideal vehicle for resolving a question that has fractured the lower courts
and created a lack of uniformity in answering an important question that this Court
should settle: does lawful detention in a squad car near the premises to be searched
invalidate the objection by the detained individual such that officers may conduct a
warrantless search under the authority of a contemporaneously consenting cotenant?
In various cases cited herein, lower courts have held that lawful detention on
the premises or in a squad car near the place to be searched renders an individual
absent for purposes of objecting to a warrantless search of their residence. Other
courts, however, have found that lawful detention nearby, including in a squad car,
will not remove this important Fourth Amendment right. Because Petitioner, Craig
Howard, objected to the search of his residence, was detained near his residence in a

1

squad car while officers sought another co-tenant’s consent to search, and officers
subsequently conducted a warrantless search based on the third party’s consent, this
case affords the Court an opportunity to clarify Randolph and its progenies such that
uniformity among the lower courts may be reached when confronting this narrow, yet
often-occurring situation.
This case also presents an excellent vehicle for resolving a second important
question that has resulted in a circuit split between the Sixth and Ninth Circuits,
inquiring into the reasonableness of a search of each separate bedroom of a shared
residence based on the apparent authority of a single co-tenant without possessing or
obtaining information that would indicate mutual use of such areas. The Ninth
Circuit, following this Court’s well-established instruction in Illinois v. Rodriguez,
497 U.S. 177 (1990), has determined that it is unreasonable, without further inquiry,
for officers to presume that a single party has control over a specific bedroom within
a shared residence. United States v. Arreguin, 735 F.3d 1168 (9th Cir. 2013).
Conversely, the Sixth Circuit in the present case determined that officers were
reasonable when they searched a bedroom within a shared residence based on a single
co-tenant’s consent without indication or confirmation of her mutual use of the
bedroom. Because it is undisputable that officers knew nothing about the consenting
party’s mutual use or joint access of the bedroom in question and took no steps to
inquire further before conducting their search of such an area, this case presents the
Court with an opportunity to resolve this circuit split.

2

STATEMENT OF THE CASE
On March 29, 2017, the Memphis Police Department received a report that a
vehicle was stolen from an individual by two unknown assailants armed with
firearms. On or about April 3, 2017, during the early morning hours, the stolen
vehicle was located outside a house at 5607 Apple Blossom Drive, Memphis, Shelby
County, Tennessee (“the Residence”). After removing a female, Evelyn Harris, from
the vehicle, officers completed a protective sweep of the home and removed multiple
individuals, four of whom were detained in squad cars near the residence. A single
co-tenant of the Residence, LaQuinta McAbee, was allowed to remain in the home
along with several young children, and she provided consent to search the Residence.
Officers subsequently located a firearm in an upstairs bedroom, underneath a
mattress, and the firearm was later determined to belong to Petitioner, Craig Howard
(hereinafter “Howard”) based on statements he subsequently made while in custody
after the search and seizure was conducted.
On December 12, 2017, a grand jury sitting in the Western District of
Tennessee returned a one-count indictment against Howard for knowing possession
of a Glock 9mm firearm in and affecting interstate commerce in violation of 18 U.S.C.
§ 922(g)(1). On February 16, 2018, Howard filed a Motion to Suppress seeking
suppression of any and all evidence obtained as a result of the warrantless search of
Howard’s Residence on or about April 3, 2017.

3

I.

THE OBJECTING CO-TENANT PLACED IN A NEARBY SQUAD CAR
Accomplishing a protective sweep of the Residence on April 3, 2017, officers

removed four adult men from the Residence, some of whom were in the common area
of the home, while others were found in separate upstairs bedrooms. Additionally,
one female was located in the Residence in an upstairs bedroom, at which time she
was taken downstairs to the living room, along with four young children who had
been gathered from two separate bedrooms. The four adult men, one of whom was
Howard, were each detained in separate squad cars near the Residence. As Howard
was being removed from the Residence, and then continuing from the squad car
where he was within earshot of the Residence, Howard objected to the search and
questioned the officer’s authority to be in the home, stating the following as captured
by body camera and police cruiser audio recordings:
y’all must got a search warrant or something. . . . Hey Robocop . . . must
got a warrant or something. . . . We got kids in there. . . . Y’all ain’t even
got no warrant. . . . Can any of y’all talk to me . . . who I need to be
talking to . . . [observing officers coming and going from the residence]
why the fuck they [undecipherable] goin’ into the house, bro? . . . He can
close that house, the car is right here.
Despite Howard’s objections and his physical presence and proximity to the
Residence, officers approached McAbee, the female co-tenant who had been allowed
to remain inside the Residence with the children. While Howard was detained
outside in the nearby squad car, officers requested consent to search from McAbee,
explaining that she could either sign the consent to search and her home would not
be torn up, or they could go get a search warrant and tear up the home. McAbee gave
verbal and written consent to search.
4

Howard, through a Motion to Suppress, challenged the subsequent
warrantless search of his shared Residence, including the bedroom he shared with
his girlfriend Evelyn Harris, based on the fact that he had been a physically present
co-tenant who was objecting to the search such that it would have invalidated
McAbee’s contemporaneous consent. The District Court considered this issue and
determined that Howard’s questions and statements from the back of the police car
located several yards from the premises were not an express objection to the search.
Additionally, the District Court determined that Howard was not placed in the squad
car to avoid any potential objection, but that he was detained during the search due
to him matching a description of the individual involved in the car theft. However,
the Court did find it curious that the officers never asked Defendant for consent or
simply obtained a search warrant, though they had every opportunity to do so. Thus,
the Motion to Suppress related to Howard’s objection argument was denied.
This issue was properly preserved and presented to the Sixth Circuit for
consideration on appeal. Without determining whether or not Howard expressly
objected to the search of the Residence, the Sixth Circuit summarily determined that,
if Howard did object, he did so before he was lawfully arrested. He was then placed
in the back of a squad car, whereupon officers entered the house and asked McAbee
for consent. The Sixth Circuit deemed Howard as absent when McAbee gave consent,
in addition to the conclusion that Howard’s earlier objection did not remain effective.
Accordingly, the Sixth Circuit upheld the District Court’s denial of Howard’s Motion
to Suppress related to the physically present and objecting co-tenant issue.

5

II.

SEARCH OF THE ENTIRE SHARED RESIDENCE, INCLUDING EACH
SEPARATE BEDROOM AND ITS CONTENTS, BASED ON THE
CONSENT OF A SINGLE CO-TENANT.
Multiple officers accomplished a protective sweep of the Residence during the

early morning hours of April 3, 2017, at which time five adult co-tenants were
removed from various locations of the dwelling, including several separate bedrooms.
Howard and three other adult male co-tenants of the Residence were detained by
officers in nearby squad cars, and a female co-tenant, McAbee, was detained in the
living room of the Residence along with four children who had been placed in the
living room by officers. Immediately after officers had secured the premises, one
officer, Officer Westrich, approached each adult co-tenant and asked if they lived at
the Residence. All five co-tenants answered in the affirmative and confirmed that
they lived at the Residence. Each co-tenant, including McAbee, additionally told
Officer Westrich that they were not leaseholders of the property. Officer Westrich
did not ask any of the detained male co-tenants for consent to search the premises.
Instead, Officer Westrich retrieved a consent to search form from his vehicle
and reentered the Residence where McAbee stood with the children to request
consent to search the Residence. McAbee provided both verbal and written consent
to search. Officer Westrich testified at the subsequent Suppression Hearing that he
did not ask which room McAbee resided in or which rooms the other residents resided
in because he considered McAbee’s consent to search, as a resident of the house, to be
valid as to the entire house. He further testified that he did not believe any further
action was necessary after he obtained consent to search from McAbee because she

6

lived at the Residence, she took care of the children, no other individuals on the scene
stated that they were leaseholders, and she gave consent for the Residence to be
searched. Accordingly, the entire residence was searched based on McAbee’s consent,
including Howard’s bedroom and underneath the mattress of the bed that he shared
with his girlfriend. In light of the early morning hours and the unexpected nature of
the officer’s arrival and removal of all the residents from their bedrooms, all of the
bedroom doors were unlocked and open. A firearm was discovered in what was later
determined to be Howard’s bedroom, under the mattress he shared with his
girlfriend.
Howard challenged the discovery of the firearm through a Motion to Suppress
based on the unreasonable and warrantless search of his bedroom and mattress. At
the suppression hearing, Howard’s girlfriend, Evelyn Harris, testified that she and
McAbee were sisters and had lived at the residence for about a year and a half and
split the rent payments equally. Harris additionally stated that Howard had lived at
the Residence for a few months and is her boyfriend of three years and her children’s
father. In addition to their shared room, Harris testified that McAbee had her own
separate bedroom at the Residence, as did her other male relatives who were also cotenants of the Residence. Harris testified that she would not go into McAbee’s
personal belongings without her permission and that although McAbee helped care
for her children, McAbee did not have permission to go through the bedroom she
shared with Howard, including under their mattress or in their bags.
The District Court considered this issue and determined that McAbee had both

7

actual and apparent authority to consent to a search of Howard’s bedroom. In finding
actual authority, the District Court found that the record suggested that the
residence was a family residence, which under Sixth Circuit law provides actual
authority for McAbee to consent to search. In finding apparent authority, the District
Court determined that officer could have reasonably relied on McAbee’s authority to
consent to a search of the bedroom shared by Harris and Howard because (1) McAbee
had all four children by her side when Officer Westrich sought consent; (2) McAbee
signed a consent-to-search form that authorized a “complete search” of the residence;
and (3) the bedroom where officers found Defendant’s gun was unlocked. Accordingly,
the District Court denied Howard’s Motion to Suppress.
This issue was presented upon appeal to the Sixth Circuit. Following the
District Court, the Sixth Circuit found both actual and apparent authority existed to
validate McAbee’s consent to search the bedroom. Despite never resolving whether
officers knew the Residence to be a family residence at the time of the search, the
Sixth Circuit found the fact that all of the co-tenants besides Howard were family
members gave McAbee actual authority to consent.
The Sixth Circuit additionally parroted the factors found by the District Court
above to provide a reasonable basis for apparent authority.

Determining that

especially in light of McAbee having the children with her and the bedroom door being
unlocked at the time of the search, McAbee’s apparent authority extended to every
bedroom in the residence, including the largest item in the room—the mattress.
Reasoning further that the searching officers could have believed Howard’s bedroom

8

belonged to McAbee, and finding no evidence that the bedroom was searched solely
because officers definitively knew that it was not McAbee’s, the Sixth Circuit held
that no ambiguity was presented as to mutual use such that officers needed to inquire
further into McAbee’s authority to consent. Thus, the Sixth Circuit affirmed the
District Court’s denial of Howard’s Motion to Suppress.
Howard’s Petition for Rehearing En Banc was denied by the Sixth Circuit
Court of Appeals on May 13, 2020.

9

REASONS FOR GRANTING THE WRIT
This Honorable Court should grant the writ to decide the two important
questions this case presents. The first presents an important question of federal law
that has not been, but should be, settled by this Court regarding whether the lawful
detention of an objecting co-tenant in a nearby squad car renders him absent such
that officers may reasonably search the premises based on the contemporaneous
consent of another co-tenant. The second question has produced a circuit split and
asks whether officers, with the consent of a single co-tenant, may reasonably search
the entirety of a shared residence, including separate bedrooms, without first
possessing knowledge that would objectively and reasonably indicate mutual use of
such areas by the consenting co-tenant.
I.

Will the lawful detention of an objecting co-tenant in a squad car on the
premises to be searched make him absent such that another co-tenant may
consent to the search while the objecting co-tenant remains in the squad car,
or will said objecting co-tenant’s presence near the premises to be search,
despite in a squad car, satisfy the physical presence requirement under
Randolph and Fernandez?
While the Supreme Court has discussed the Fourth Amendment at length in

terms of warrantless searches based upon the consent of a single resident of a shared
dwelling, here, a unique question is presented when a physically present co-tenant
objects to a search, but is then removed from the immediate dwelling while officers
seek consent to search from another co-tenant, who acquiesces. This question is
especially unique and significant when the objecting co-tenant is removed from the
physical dwelling place by law enforcement, only to be detained in a squad car still
on the premises and near the residence to be searched while consent to search from

10

another co-tenant is sought.

Not only does this circumstance present a Fourth

Amendment issue, but it also presents an important question of federal law that has
not been settled by this Honorable Court because there is an outstanding question as
to what will qualify as presence on the premises to be searched such that a co-tenant’s
objection will prevail over another co-tenant’s consent.
In Georgia v. Randolph, 547 U.S. 103 (2006), this Court held that “a
warrantless search of a shared dwelling . . . over the express refusal of consent by a
physically present resident cannot be justified as reasonable as to him on the basis of
consent given to the police by another resident.” Randolph, 547 U.S. at 120. However,
in Fernandez v. California, 571 U.S. 292 (2014), this Court clarified that an objection
by a co-tenant—who has afterwards been far-removed from the premises—would not
invalidate a physically present co-tenant’s subsequent consent to search. See id.
Consequently, the Court recognized that if “Randolph requires presence on the
premises to be searched, there may be cases in which the outer boundary of the
premises is disputed.” Id. at 306.
Accordingly, the Court “adopted a rule that applies only when the affected
individual is near the premises being searched.”1 Id. (citing Bailey v. United States,
568 U.S. 186 (2013)) (defining the geographic parameters of officers’ authority to
detain individuals while executing a search warrant and limiting such area to “the

In adopting the premises rule, the Supreme Court was careful not to overturn prior
precedent holding that when an individual is present, but does not object before the search
begins, the search will be valid if based on the consent of a third-party with common or
apparent authority over the premises to be searched. See United States v. Matlock, 415
U.S. 164 (1974) (defendant was detained nearby in a squad car but did not object to the
search) (emphasis added); see also Illinois v. Rodriguez, 497 U.S. 177 (1990).
1

11

immediate vicinity of the premises”) (emphasis added).
A. This case is an ideal vehicle to clarify the Court’s premises rule as developed
in Fernandez.
This case does not require the Court to imagine and define the outer boundary
of physical presence in every conceivable circumstance. It does, however, present the
Court with an ideal vehicle to resolve the specific question of whether detention of an
objecting co-tenant in a squad car on or near the premises will disqualify the cotenant’s objections and render him absent such that another physically present cotenant’s consent to search will prevail.
It is indisputable that officers routinely remove individuals from the doorways
and interiors of their residences when investigating potential crimes, only to detain
these individuals outside the dwelling or in nearby squad cars to purportedly ensure
officer safety.

It is oftentimes the individuals removed from the residence and

detained nearby that have the strongest objection to a warrantless search of their
residence. While such detention is often lawful, it does not follow that typical protocol
used to enhance officer safety must result in the removal of the detained individual’s
Fourth Amendment rights.
The recurrent nature of these circumstances, without directly applicable
precedent, has led to a lack of uniformity among lower courts’ rulings such that this
important question should be resolved by this Court. For example, various lower
courts have determined that an individual’s detention in a nearby squad car, or even
in the front yard of the premises to be searched, will render that individual “absent”
such that officers may approach another co-tenant in the residence and request

12

consent to search over the objections of the nearby and detained co-tenant. See e.g.

United States v. Jones, 861 F.3d 638, 642-43 (7th Cir. 2017) (although the
government contended that Jones was not removed because he was only twenty feet
away from the entrance of the residence and could see and hear what the searching
officers were doing, the Seventh Circuit found he was no longer “standing at the door
and expressly refusing consent” when the officers received consent to search the
residence. Rather, Jones was removed due to lawful detention and his objection “lost
its force”); see also Joseph v. Donahue, 392 F. Supp. 3d 973 (D. Minn. 2019)
(defendant objecting from the front yard and later from a squad car “loses out”
because he was not “in fact at the door and object[ing],” but was instead “nearby but
not invited to take part in the threshold colloquy”); Prophet v. State of Florida, 970
So.2d 942 (Fla. App. 4 Dist. 2008) (arrestee handcuffed and placed in back of patrol
car was not “physically present” for purposes of determining whether his consent to
search was required).
Alternatively, other lower courts have determined that detention in a nearby
squad car will satisfy physical presence such that the individual’s objection will defeat
another’s consent. See United States v. Blackaby, 2018 U.S. Dist. LEXIS 22204, *23
(E.D. Ky. Feb. 12, 2018) (co-tenant’s consent was invalid when sought immediately
after defendant objected to the search, was arrested and detained in a police cruiser
near the premises being searched); see also United States v. Morales, 893 F.3d 1360,
1370 (11th Cir. 2018) (indicating that, similar to the defendant in Matlock, defendant
had been detained near the place to be searched; however, had he objected to the

13

search, his case may have yielded a different outcome than the holding in Matlock);
Notably, at least one state court has held that a tenant who has been arrested
and placed in a nearby police car is not “physically present” such that his refusal to
consent to a search would bar a warrantless search despite consent given by a cotenant. See State of Wisconsin v. St. Martin, 800 N.W.2d 858, 861 (Wisc. 2011). In St.

Martin, supra, the Wisconsin Supreme Court answered the following question:
Whether the rule regarding consent to search a shared dwelling in
[Randolph], which states that a warrantless search cannot be justified
when a physically present resident expressly refuses consent, applies
where the physically present resident is taken forcibly from his
residence by law enforcement officers but remains in close physical
proximity to the residence such that the refusal is made directly to law
enforcement on the scene?

Id. at 860. The Court held that the rule in Randolph does not apply in such a case. Id.
at 861. In doing so, the Court reasoned that “Randolph is to be construed narrowly,”
and that the rule stated in Randolph did not apply under the circumstances presented
there because the defendant, who was in police custody and seated in a nearby police
vehicle when he refused consent, “was not physically present at what the United
States Supreme Court called the ‘threshold colloquy.’” Id. at 859, 861 (citing

Randolph, 547 U.S. at 121). Of most importance, however, the St. Martin Court made
these findings before the Supreme Court in Fernandez determined that a “premises
rule” is workable when determining physical presence, applying Randolph and
finding physical presence when the affected individual is “near the premises to be
searched.” Fernandez, 571 U.S. at 306.

14

Here, Howard made the following objections directly to officers and while he
was detained in a squad car observing officers entering his Residence:
y’all must got a search warrant or something. . . . Hey Robocop . . . must
got a warrant or something. . . . We got kids in there. . . . Y’all ain’t even
got no warrant. . . . Can any of y’all talk to me . . . who I need to be
talking to . . . [observing officers coming and going from the residence]
why the fuck they [undecipherable] goin’ into the house, bro?” Supp.
Exhibit List, RE 126, Supp. Ex. 5. Additionally, Howard said to nearby
officers: “He can close that house, the car is right here.
These statements, taken together, exhibited a clear objection to the entry and
warrantless search of the Residence Howard shared with multiple other adult cotenants.

Further, although Howard was handcuffed in a squad car outside the

Residence, he remained “on the scene” and “near the premises” during his continuing
protests. Yet, within minutes of detaining Howard, and while he remained near the
residence in a squad car, officers approached a single co-tenant who was allowed to
remain inside the residence to request consent to search.
B. The United States Court of Appeals for the Sixth Circuit erred in holding
that the warrantless search of the shared premises was reasonable as to
Howard.
Despite the foregoing circumstances, the Sixth Circuit held that the
warrantless search of Howard’s residence based on his co-tenant’s consent was
reasonable. In so doing, the Court cited Fernandez and Matlock and determined that
Howard was “absent” at the time of his co-tenant’s consent. The Court therefore
reasoned that any objections Howard may have made did not remain in effect based
on his subsequent detention in a nearby squad car.
Contrary to the Sixth Circuit’s findings, however, this Court has not previously

15

determined that an objecting individual’s detention in a squad car near the premises
to be searched would render said individual “absent” for purposes of a warrantless
search and his objections ineffective. In fact, the Fernandez Court expressly stated
that it did not resolve the outer boundaries of the premises requirement. Fernandez,
571 U.S. at 306. The Sixth Circuit therefore erred when it determined summarily
that detention in a nearby squad car renders an objecting co-tenant absent.
Moreover, the Sixth Circuit incorrectly construed prior Supreme Court rulings, which
has unacceptably eroded the protections provided by the Fourth Amendment, such
that this unsettled area of law requires review and resolution by this Honorable
Court.
While the Sixth Circuit properly noted that the Fernandez Court has held that
“an occupant who is absent due to a lawful detention or arrest stands in the same
shoes as an occupant who is absent for any other reason,” the Sixth Circuit failed to
acknowledge that this holding was in the context of an occupant who had been
detained or arrested and long removed from the premises, typically due to being
transported to a police station for questioning or to jail. See e.g. Fernandez, 571 U.S.
at 296 (after arresting defendant and transporting him to the station for booking,
officers returned to the residence an hour later to request consent to search from the
present co-tenant). Extrapolating a lawful detention under any circumstances and
in any proximity to the premises being searched to mean that an occupant is
automatically then absent for purposes of objecting to a warrantless search
undermines the premises rule established by the Fernandez Court, as well as the

16

rationale explained initially in Randolph and reiterated in Fernandez2. In fact, it
would be difficult to reconcile a holding that would determine the distance of a
driveway is all that is needed to invalidate a co-occupant’s objections over the consent
of the occupant in the home and effectively remove the objecting occupant’s Fourth
Amendment right to be secure from unreasonable searches and seizures.
To further illustrate, the Eleventh Circuit, without precedent to instruct them
on such circumstances, has indicated that placement in a squad car or detention near
a squad car at the premises being searched in addition to objections by the individual
may yield a different result than that which was reached in Matlock, wherein the
defendant was in a squad car and did not object to the search:
Although the Matlock defendant was not present with the opportunity
to object, he was in a squad car not far away.” [Randolph, 547 U.S. at
121]. Same here. Morales was not involved in the conversation between
the officers and Lang but was outside the house “not far away.” Id.
Articulating a rational explanation for the physical presence requirement, Fernandez
stated the following:
2

Explaining why consent by one occupant could not override an objection by a
physically present occupant, the Randolph Court stated: “[I]t is fair to say that
a caller standing at the door of shared premises would have no confidence that
one occupant’s invitation was a sufficiently good reason to enter when a fellow
tenant stood there saying, ‘stay out.’ Without some very good reason, no
sensible person would go inside under those conditions.” [Georgia v. Randolph,
547 U.S. 103, 113 (2006)].
It seems obvious that the calculus of this hypothetical caller would likely be
quite different if the objecting tenant was not standing at the door. When the
objecting occupant is standing at the threshold saying “stay out,” a friend or
visitor invited to enter by another occupant can expect at best an
uncomfortable scene and at worst violence if he or she tries to brush past the
objector. But when the objector is not on the scene (and especially when it is
known that the objector will not return during the course of the visit), the
friend or visitor is much more likely to accept the invitation to enter.

Fernandez, 571 U.S. at 303-304.
17

…Had Morales objected to the search, it might be different. Cf.
Randolph, 547 U.S. at 121. But he didn’t.

United States v. Morales, 893 F.3d 1360, 1370 (11th Cir. 2018).
Further, lower courts within the Sixth Circuit have determined that detention
in a squad car near the premises to be searched would not render a defendant absent,
nor would it remove the effect of the defendant’s objection to a search of the premises:
Unlike the arrested cotenant in Fernandez, who was taken to the police
station, Ruark was arrested and detained in Officer Tackett's police
cruiser near the premises being searched. Although it is unclear from
the record where Officer Tackett's cruiser was parked—two of the three
cruisers were parked on the street directly in front of the Defendants’
home and the third cruiser was parked in a neighbor’s driveway—it is
clear that Ruark was near the premises being searched. See also United
States v. Allen, No. 16-cr-20239, 2018 U.S. Dist. LEXIS 14325, 2018 WL
624110, at *4 (W.D. Tenn. Jan. 30, 2018) (“Although Allen was lawfully
detained in a squad car while [cotenant] consented to the search, he was
near the searched premises.”). After putting Ruark in his cruiser, Officer
Tackett immediately reentered the residence and requested consent to
search from Blackaby. Accordingly, Blackaby’s consent to search was
invalid.

United States v. Blackaby, 2018 U.S. Dist. LEXIS 22204, *23 (E.D. Ky. February 12,
2018).
Unlike the defendants in Matlock, Rodriquez, and Fernandez, a defendant who
registers his objection to the search and remains near the premises to be searched
while consent is sought from another co-tenant, despite detention in a squad car, is
physically present on the premises such that another’s consent to search will be
invalid. As the Randolph Court has previously emphasized,
. . . in the balancing of competing individual and governmental interests
entailed by the bar to unreasonable searches, the cooperative occupant’s
invitation adds nothing to the government’s side to counter the force of
an objecting individual’s claim to security against the government’s
18

intrusion into his dwelling place . . . Disputed permission is thus no
match for this central value of the Fourth Amendment . . . .

Georgia v. Randolph, 547 U.S. 103, 115 (2006). Given the unsettled nature of this
important question of federal law, this Court should grant certiorari to resolve this
important question, thereby ensuring that Randolph, Fernandez, and their progeny
are correctly applied across federal and state courts.
II.

Is it reasonable for an investigating officer to rely on a single co-tenant’s
consent to search a shared residence in order to search each separate bedroom
of the residence and its contents without first possessing knowledge of the
consenting co-tenant’s authority and mutual use of each bedroom?
In Illinois v. Rodriguez, 497 U.S. 177 (1990), the Court reiterated that the

Fourth Amendment does not demand that an officer be correct when executing a
search or seizure; it requires only that he or she act reasonably. Id. at 184. In
assessing whether an officer’s belief was objectively reasonable, the court considers
“the facts available to the officer at the moment.” Id. at 188 (emphasis added).
However, where the circumstances presented would cause a person of reasonable
caution to question whether the third party has mutual use of the property,
“warrantless entry without further inquiry is unlawful[.]” Id. at 188-89 (noting that
“the surrounding circumstances could conceivably be such that a reasonable person
would doubt [the apparent consent] and not act upon it without further inquiry”)
(emphasis added).
A. A circuit split exists regarding whether officers may search every
bedroom of a shared residence to which consent to search has been
given by a single adult co-tenant, without first inquiring further or
possessing information that indicates mutual use of such areas.
This case asks the question whether it is reasonable for an officer to rely upon

19

the consent of a single co-tenant in order to search each and every separate bedroom
within the residence and its contents without first inquiring into the co-tenant’s
authority or mutual use of such areas.
Relying on Rodriguez, the Ninth Circuit, in United States v. Arreguin, 735 F.3d
1168 (9th Cir. 2013), held that “a reasonable person would not presume, without
further inquiry” that a third party had control of a bedroom within an apartment in
which she was a resident. Id. at 1178. Therein, officers were confronted with several
adult occupants of a residence, with only one resident providing consent to search the
home. The Ninth Circuit ruled that it was not objectively reasonable for the officers
to conclude that the consenting individual had authority to consent to a search of the
master bedroom and bathroom, given that officers knew virtually nothing about: (1)
the consenting individual; (2) the various separate rooms and areas inside the
residence; or (3) the nature and extent of the individual’s connection to those separate
rooms. Id. at 1175-76 (also finding that “police are not allowed to proceed on the
theory that ignorance is bliss,” and officers were in a state of near-ignorance when
they searched a master suite knowing “far too little to hold an objectively reasonable
belief” that a single resident of a shared dwelling could consent to a search of those
areas).
Departing from the “inquiry requirement” intimated by Rodriguez and clearly
deemed necessary by the Ninth Circuit under strikingly similar circumstances, the
Sixth Circuit here has seemingly given credence to an “ignorance is bliss” theory
under which officers may apply the apparent authority concept to a single co-tenant’s

20

consent to search a residence, such that every bedroom of a shared residence may be
searched without ever determining whether or not a single adult co-tenant shares a
mutual use of every single bedroom of a residence. Officers may reasonably continue
with a search in the face of such ambiguity in terms of authority so long as they do
not have definitive and reliable information that the area being searched belongs to
someone other than the individual providing the consent to search. Thus, the Sixth
Circuit apparently held that any bedroom of the residence reasonably could have
belonged to McAbee, and thus, the warrantless search was reasonable.
This holding stands at odds with the Supreme Court’s holding in Rodriguez, as
well as creates a circuit split between Sixth and Ninth Circuit.
B. The Sixth Circuit decision is in conflict with the Ninth Circuit, which
necessitates an exercise of this Court's supervisory power.
As this Court has previously noted “[c]onsent searches are part of the standard
investigatory techniques of law enforcement agencies” and are “a constitutionally
permissible and wholly legitimate aspect of effective police activity.” Fernandez, 571
U.S. 292, 298 (citing Schneckloth v. Bustamonte, 412 U.S. 218, 228, 231-32 (1973)).
Indeed, this Court’s cases “firmly establish that police officers may search jointly
occupied premises if one of the occupants consents.” Id. at 294. However, a co-tenant
may not consent to a search of another co-tenant’s space unless the co-tenant giving
consent has some shared dominion over that space. United States v. Matlock, 415
U.S. 164, 171 n.7 (1974). When circumstances cause officers to reasonably question
the shared dominion over a particular space, the determination of whether continued
warrantless entry was reasonable turns on the facts and circumstances known to the
21

officers at the moment of the search. Rodriguez, 497 U.S. at 188.
Warrantless searches of a co-tenant’s space based on the consent of another cotenant have withstood scrutiny in other cases because the responding officers knew
sufficient information to reasonably indicate mutual use of the place or item to be
searched, either based on information freely shared by the consenting party or in
response to inquiries made by officers prior to searching. See e.g. United States v.

Matlock, 415 U.S. 164, 168 (1974) (consenting co-tenant told officers before search
that she jointly occupied the bedroom with the defendant); Pratt v. United States,
214 Fed. App’x 532, 537 (6th Cir. 2007) (officers were aware prior to search that the
consenting co-tenant was the mother of defendant and had authority to consent to
search of her son’s bedroom); United States v. Kelley, 953 F.2d 562, 566 (9th Cir.
1992) (consenting co-tenant told officers prior to search that they had separate
bedrooms, but that she was allowed access to defendant’s bedroom to use the
telephone). Here, however, officers conducted a search without any knowledge that
would have provided the basis for a reasonable belief of mutual use at the time of the
search.
Illustrating clearly how the Sixth Circuit holding has diverged from Rodriguez
and created a circuit split with the appropriate standard and ruling in the Ninth
Circuit, it is important to note that the investigating officers in the present case only
knew the following information “at the moment” they searched Howard’s bedroom:
(1) five adults, including McAbee, informed officers that they resided at the residence,
however none of the five adults were leaseholders; (2) several adult co-tenants were

22

removed from multiple, separate bedrooms during a protective sweep of the
residence; (3) four children were present at the residence and were gathered from at
least two different bedrooms and placed in the living room; (4) a single adult female—
McAbee—was allowed to remain with the children inside the residence; (5) one adult
co-tenant had objected to a search of the residence and was still on the scene in a
squad car; (6) McAbee consented to a search of the residence; and (7) the bedroom
officers entered was unlocked.
Mirroring the circumstances in Arreguin, officers knew virtually nothing about
McAbee, the various rooms within the residence, or McAbee’s connection and mutual
use to the multiple separate bedrooms within the residence. Although the Sixth
Circuit attempted to grasp at the sparse factors available, it is clear that an objective
inquiry into the reasonableness of the search in question fails.3 In fact, upon review
at the subsequent Suppression Hearing, the record does not reflect that officers knew
that McAbee, the consenting co-tenant, resided in the shared residence with family
members prior to conducting their search. Further, officers did not know, nor did
they inquire into which bedroom belonged to McAbee, or whether or not she shared
mutual use of any of the other bedrooms belonging to her adult co-tenants. Officers
were additionally unaware whether the separate bedrooms were typically locked—
they had surprised the occupants of the residence during the early morning hours

The Sixth Circuit found that McAbee had the apparent authority to search every single
bedroom in the shared residence based on the facts that “McAbee had four children by her
side when asked for consent, McAbee signed a consent-to-search form that authorized a
‘complete search,’ the bedroom where the firearm was located was unlocked, and McAbee
said she lived there and no other detained individual indicated leaseholder status.” United
States v. Howard, 806 Fed. App’x 383 (6th Cir. 2020).
3

23

and removed them such that the co-tenants would not have had the time nor ability
to lock their doors behind them even if typically done—nor did officers determine
ownership, or mutual use of the bed they searched within a specific bedroom that was
later discovered to be Howard’s. Moreover, although McAbee had four children at her
side when asked for her consent to search, the children had been gathered from
separate rooms of the residence and placed with McAbee by the officers on the scene
for their supervision. Without inquiry, officers were unaware that three of the four
were not even McAbee’s children, adding nothing to McAbee’s apparent authority to
consent to a search of every separate bedroom belonging to her adult co-tenants. See

United States v. Cos, 498 F.3d 1115, 1130-31 (10th Cir. 2007) (finding that neither
Randolph nor Matlock suggested that a female in the defendant’s apartment with
children was sufficient to establish apparent authority).4
As concluded by the Ninth Circuit, the officers here were in a state of nearignorance when they searched Howard’s bedroom knowing “far too little to hold an
objectively reasonable belief” that a single resident of a shared dwelling could consent
to a search of this area. Arreguin, 735 F.3d at 1175-76; See also United States v.

Peyton, 745 F.3d 546, 552 (D.C. Cir. March 21, 2014) (finding that “[t]he fact that a
person has common authority over a house, an apartment, or a particular room, does

“Here, the government contends that because Ms. Ricker answered the door of Mr. Cos’s
apartment at three o’clock in the afternoon and because the officers realized that children
were there, the officers reasonably believed that Ms. Ricker had the authority to consent to
the search . . . Even if accompanied by young children, a third party’s mere presence on the
premises to be searched is not sufficient to establish that a man of reasonable caution would
believe that she had ‘mutual use of the property by virtue of joint access, or . . . control for
most purposes over it.’” United States v. Cos, 498 F.3d 1115, 1130-31 (10th Cir. 2007) (quoting
United States v. Rith, 164 F.3d 1323, 1329 (10th Cir. 1999)).
4

24

not mean that she can authorize a search of anything and everything within that
area”); United States v. Davis, 332 F.3d 1163, 1169 n.4 (9th Cir. 2003) (“By staying
in a shared house, one does not assume the risk that a housemate will snoop under
one's bed, much less permit others to do so”). Rather, considering the “facts available
to the officer at the moment” of the search, the circumstances presented in this case
are exactly those that would cause a person of reasonable caution to question whether
the third party had mutual use of the property. Accordingly, “warrantless entry

without further inquiry [was] unlawful[.]” Rodriguez, 497 U.S. at 188-89.
Given the importance of this issue, the significant Fourth Amendment
implications, and the recurrent nature of these circumstances, this matter is ripe for
review by the Supreme Court and its supervisory powers should be exercised to settle
the circuit split between the Sixth and Ninth Circuits. Co-tenant living situations,
both involving adult family members and unrelated adult individuals is an increasing
phenomenon. See Richard Fry, More adults now share their living space, driven in

part by parents living with their adult children, Pew Research Center (Jan. 31, 2018),
https://www.pewresearch.org/fact-tank/2018/01/31/more-adults-now-share-theirliving-space-driven-in-part-by-parents-living-with-their-adult-children/ (“In 2017,
nearly 79 million adults (31.9% of the adult population) lived in a shared household
– that is, a household with at least one ‘extra adult’ who is not the household head,
the spouse or unmarried partner of the head, or an 18- to 24-year-old student. In
1995, the earliest year with comparable data, 55 million adults (28.8%) lived in a
shared household”); See also, Harlan Thomas Mechling, Third Party Consent and

25

Container Searches in the Home, 92 Wash. L. Rev. 1029 (2017) (discussing the sharp
rise of Americans living with roommates since the Supreme Court’s decision in

Matlock and the circuit court split regarding the duty of law enforcement to clarify
authority over containers in shared space).
In light of the large number of co-tenant living situations across our country,
courts can reasonably expect apparent authority issues to occur on an increasingly
frequent basis. As exacerbated by the recent Sixth Circuit holding, there is a need
for clarity regarding the reasonableness of searching every separate bedroom within
a shared residence, and the respective contents, based on a single co-tenant’s consent
without first requesting or possessing information that would indicate mutual use of
such areas. This Court should therefore grant certiorari on this issue.

CONCLUSION
The Petition for Writ of Certiorari should be granted.
DATED: This 10th day of August 2020.

Respectfully Submitted,

THE WHARTON LAW FIRM

s/ André C. Wharton_______________
André C. Wharton, (TNBPR # 22588)
Attorney for Petitioner
1575 Madison Avenue
Memphis, Tennessee 38104
(901) 726-6884
26

